                        U.S. Department of Agriculture
                           Office of Inspector General




 General Procurement Oversight Audit of
 Beltsville’s Agricultural Research Service
National Agricultural Library Bricks Repair
Contract Awarded to Vigil Contracting, Inc.




                                 Audit Report 02703-03-HQ
                                                 May 2011
                        United States Department of Agriculture
                                Office of Inspector General
                                 Washington, D.C. 20250

DATE:          May 6, 2011

AUDIT
NUMBER:        02703-03-HQ

TO:            Ed Knipling
               Administrator
               Agricultural Research Service

ATTN:          Michelle Garner
               Acting Director
               Financial Management Division

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                 for Audit


SUBJECT:       General Procurement Oversight Audit of Beltsville’s Agricultural Research
               Service’s National Agricultural Library Bricks Repair Contract Awarded to
               Vigil Contracting, Inc.


This report presents the results of the General Procurement Oversight Audit of Beltsville’s
Agricultural Research Service’s National Agricultural Library Bricks Repair Contract
awarded to Vigil Contracting, Inc. Your response to the official draft is included in its
entirety as an exhibit to this report.

Regis & Associates, PC, was engaged to conduct the audit to ensure that the transparency
and accountability requirements of the Recovery Act are met and to ensure that Agricultural
Research Service’s Recovery Act procurement activities are performed in accordance with
Federal Acquisition Regulations (FAR), Office of Management and Budget guidance, and
Recovery Act requirements. During our oversight of the contract, we reviewed Regis &
Associates, PC’s report and related documentation. Our review, as differentiated from an
audit, in accordance with Government Auditing Standards (issued by the Comptroller
General of the United States), disclosed no instances where Regis & Associates, PC’s audit
did not comply, in all material respects, with Government Auditing Standards.

Based on your response, we are able to reach management decision on Recommendations 3
and 4 contained in this report. Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer.
Ed Knipling                                                                                 2


Management decision has not been reached for Recommendations 1 and 2. ARS stated that the
guidance in AGAR 48, Chapter 4, part 407.103, only contains one sentence which is not
sufficient for Heads of Contracting Activities (HCA) to comply with FAR 7.103. ARS believes
that the Department needs to issue the guidance required by FAR 7.103. According to AGAR
part 402.101, the “Head of the contracting activity means the official who has overall
responsibility for managing the contracting activity (i.e., Chief, Forest Service; Administrator,
Agricultural Research Service; etc.), or the individual designated by such an official to carry out
the functions of the HCA.” Therefore, we still feel the responsibility for developing the
procedures, as stated in FAR 7.103, is with the HCA or designated individual and we consider
the recommendation valid. The OIG will meet with the Office of Procurement and Property
Management (OPPM) to discuss the Department and USDA Agencies’ implementation of FAR
7.103 and AGAR 48, Chapter 4, part 407.103. We will inform ARS of the results of our
discussions with OPPM in order for you to take the necessary actions to reach a management
decision for these two recommendations.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days,
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
                                                                                                             1
DATE:                     April 29, 2011


AUDIT
NUMBER:                   02703-03-HQ

TO:                       Jane A. Bannon
                          Audit Director
                          IT Audit Operations and Departmental Management
                          Department of Agriculture, Office of Inspector General

FROM:                     Regis & Associates, PC /s/

SUBJECT:                  Procurement Oversight Audit of National Agricultural Library’s Brick
                          Repair Contract - Awarded by Agricultural Research Service to Vigil
                          Contracting, Inc.


The American Recovery and Reinvestment Act of 2009 (the Recovery Act) provided the
Department of Agriculture’s (USDA) Agricultural Research Service (ARS) with $176 million to
reduce the backlog of facilities critical deferred maintenance projects. On October 6, 2009, ARS
awarded a sole-source, negotiated, firm fixed price construction contract under the 8(a) Business
Development Program1 for $1,357,177 to Vigil Contracting, Inc., to repair the brick façade of the
National Agricultural Library (NAL), located in Beltsville, Maryland. The contract was
completed, and the contractor paid in full, as of the end of November 2010. ARS’ Facilities
Division in Beltsville performed the procurement activities and contract management functions,
including contract award, contractor payment approval, and monitoring the contractor’s
Recovery Act reporting. ARS’ Financial Management Division (FMD) reported agency
Recovery Act fund statistics on Recovery.gov through SharePoint.2

In enacting the law, Congress emphasized the need for the Recovery Act to provide for
unprecedented levels of transparency and accountability, so that taxpayers know how, when, and
where tax dollars are being spent. To accomplish this objective, the Office of Management and
Budget (OMB) issued various Implementing Guidelines that require Federal agencies receiving
Recovery Act funds to post key information on Recovery.gov. In addition, agencies must submit
weekly updates, monthly financial status reports, award transaction data feeds, and an agency
Recovery Act plan.




1
  The Small Business Administration 8(a) Business Development Program was created to assist eligible small
disadvantaged business owners to compete in the American economy through business development.
2
  SharePoint is an electronic database for USDA’s Recovery Act data collection.
                                                                                                    2
The Recovery Act also provided USDA’s Office of Inspector General (OIG) funding for
oversight and audits of USDA programs, grants, and activities funded by the Recovery Act.
OMB guidance states that OIGs will perform audits and inspections of their respective agencies’
processes for awarding, disbursing, and monitoring Recovery Act funds, to determine whether
safeguards exist for ensuring funds are used for their intended purposes.

To ensure that the transparency and accountability requirements of the Recovery Act are met,
USDA/OIG contracted with Regis & Associates, PC, to assist it in ensuring that ARS’ Recovery
Act procurement activities are performed in accordance with Federal Acquisition
Regulations (FAR), OMB guidance, and Recovery Act requirements. This audit was performed
in accordance with generally accepted government auditing standards, and standards established
by the American Institute of Certified Public Accountants.

During this audit, we reviewed applicable laws and regulations pertaining to procurement
activities, contract oversight, and Recovery Act reporting. We also obtained and reviewed ARS’
organizational documents relating to management controls, policies and procedures for the
procurement and contracting functions, financial management system, and other processes that
would ensure compliance with the Recovery Act.

The scope of this audit included a review of the justification for a sole source acquisition;
processes for preparing and issuing the solicitation, contractor selection, contract price
determination, contract award, performance monitoring; and invoice processing and payments to
determine whether ARS followed department and agency policies and procedures, FAR, and
Recovery Act requirements. We performed procedures, as necessary, to determine whether the
procurement was based on fair and reasonable price estimates, that the contract was awarded to a
contractor with appropriate qualifications, and that processes were in place to ensure that the
contractor provided services/products in accordance with contract terms.

During the course of our review, we noted that ARS’ Facilities Division did not document the
acquisition planning performed or request a legal review for this contract. Also, the rationale for
awarding the contract on a sole source, non-competitive basis was not publicized on the Federal
Business Opportunities (FedBizOpps) website as required. We noted during the course of our
review that ARS developed and documented its policies and procedures to ensure agency and
recipient Recovery Act reporting was properly and consistently performed.3 We also noted that
ARS’ contracting staff, including the contracting officer, contract specialist, and contracting
officer’s technical representative, were experienced and qualified to award and monitor the
contract.

Finding 1: ARS’ Acquisition Planning Process Should be Formalized

During our audit, we reviewed Vigil Contracting, Inc.’s contract file to assess the existence and
adequacy of acquisition planning for the NAL brick façade repair project. We noted there was




3
    We communicated this issue in a previous report (02703-01-HQ).
                                                                                                                      3
no formal, structured, and clearly communicated acquisition planning process developed, which
includes the establishment of thresholds for when a formal acquisition plan should be prepared.
We also noted that the contract file contained incomplete acquisition planning documentation.
Specifically, there was no evidence of any acquisition planning meetings that were conducted
prior to the release of the solicitation, depicting how the overall approach for awarding the
procurement was established.

In addition, we noted that the required4 contract file checklist indicates one of the key phases in a
procurement is acquisition planning, and this contract file did not contain a completed contract
file checklist of its contents.

FAR part 7, Acquisition Planning, requires agencies to perform acquisition planning in order to
ensure that the government meets its needs in the most effective, economical, and timely manner.
FAR 7.103, Agency Head Responsibilities, states that the agency head or designee shall prescribe
procedures for “establishing criteria and thresholds at which increasingly greater detail and
formality in the planning process is required as the acquisition becomes more complex and
costly, specifying those cases in which a written plan shall be prepared.” Additionally,
Agriculture’s Acquisition Regulation (AGAR)5 states that the Head of Contracting
Activity6 (HCA) shall develop procedures to comply with FAR part 7.103.

The conditions noted above resulted because acquisition planning guidance was not provided to,
or implemented in, ARS’ procurement function. Specifically, it was noted that ARS’ Head of
Contracting Activity had not issued procedural guidance on how to implement FAR part 7,
Acquisition Planning; as mandated by AGAR 48 CFR Chapter 4, part 407(1)(103). ARS' HCA
stated that ARS HCA's office had not prescribed the required procedure because he felt that the
guidance first needed to be developed at the departmental (USDA) level. Based on departmental
policy guidance, ARS' HCA would issue acquisition planning procedures for use in ARS.
However, we determined that ARS’ HCA should have issued acquisition planning procedural
guidance to ARS Facilities Division, with or without a departmental (USDA) policy guidance.
AGAR part 402.101 defines the HCA, who has the responsibility for issuing the acquisition
planning guidance; it states that, “the Head of Contracting Activity means the official who has
overall responsibility for the contracting activity (i.e. Chief, Forest Service; Administrator,
Agricultural Research Service; etc), or the individual designated by such an official to carry out
the functions of the HCA.”

As a result of not utilizing a formal, structured, and clearly communicated acquisition planning
process, which includes the establishment of thresholds defining when a formal acquisition plan




4
  Procurement and Property Division Policy Memorandum, number: 4-02.
5
  48 CFR Chapter 4, part 407 (1) (103).
6
  AGAR part 402.101 states that the Head of Contracting Activity means the official who has overall responsibility
for managing the contracting activity (i.e., Chief, Forest Service; Administrator, Agricultural Research Service; etc.)
or the individual designated by such an official to carry out the functions of the HCA.
                                                                                                                  4
should be prepared, there is an increased risk that ARS may not meet its procurement needs in
the most effective, economical, and timely manner. There is also the risk that decisions and
actions may not reflect sound business judgment that protects the government’s interests.
Furthermore, there is the risk that in the absence of a structured and clearly communicated
acquisition planning process, appropriate agency oversight may not occur at critical decision
points, such as approval of decisions taken at the initial planning meeting, major changes to the
acquisition strategy during the procurement process, and the development of government
estimates.


Recommendation 1

ARS’ Head of Contracting Activity should issue procedural guidance on the implementation of
the provisions of FAR part 7, Acquisition Planning; as mandated by AGAR 48 CFR Chapter 4,
part 407(1)(103).

Recommendation 2

ARS’ Facilities Division should implement the procedural guidance issued by ARS’ Head of
Contracting Activity, as noted in Recommendation 1. The resulting acquisition planning process
should be formalized, documented, and communicated to appropriate staff.

Finding 2: Legal Review Procedures for Contract Actions Were Not Performed

USDA’s Departmental Regulation, DR 5000-4, Legal Review of Contractual Actions, establishes
procedures for determining when to request a legal review of contractual actions. The regulation
requires the legal review of solicitations for negotiated contracts that are expected to exceed
$500,000. Also, the Internal Control Plan7 for the Research, Education, and Economics (REE)8
Acquisition Program states that legal reviews are required for all actions identified in DR 5000-4
to ensure legal sufficiency of the solicitation and contract award documents. DR 5000-4 further
requires that contracting officers document a brief statement, in a memorandum, detailing their
decision not to obtain legal review.

The NAL Brick Repairs project was a sole source, negotiated contract, awarded at a contract
price of $1,357,177 and legal review procedures should have been performed. ARS’ Facilities
Division did not request a legal review of the solicitation, and did not document the decision and
reasons for not seeking a legal review in the contract file. We noted that ARS had sent a
solicitation boilerplate, which did not contain contract specific data, to the Office of the General
Counsel (OGC) for review in February 2009, and OGC did not send any review comments or



7
  The Internal Control Plan specifies procedures that are to be followed at each step of the procurement process,
assuring that procurement policy objectives are being met and that quality standards are being upheld.
8
  REE is the USDA mission area that provides oversight and guidance to its agencies which include ARS, the
National Institute of Food and Agriculture, the Economic Research Service, and the National Agricultural Statistics
Service.
                                                                                                   5
recommendations. ARS concluded that a legal review was not necessary because no review
comments were received from OGC regarding the boilerplate. However, we determined even if
a legal review was done on the boilerplate solicitation, ARS should have had a legal review of
the solicitation, which contained the contract specific data. Also, ARS should follow up with
OGC if no response is received to ensure there are no legal issues.

ARS’ Facilities Division Contracting Officer stated that prior to awarding the contract, a
determination was made that a legal review was not necessary. The Contracting Officer further
stated that the determination not to seek legal review was based on the solicitation document’s
format and language presented to OGC in February 2009. No response was received from
OGC. Also, the Contracting Officer believes that the contract requirements for this project were
typical of the construction work repetitively procured by the Facilities Contracts Branch, and that
there were no complex legal issues to be considered.

As a result of not performing a legal review of the solicitation, ARS could be exposed to
unintended legal consequences related to the contract. Also, ARS is not in compliance with the
Department’s regulation and its own guidance, which is designed to protect it from legal risks.

Recommendation 3

ARS should request a legal review of solicitations for negotiated contracts that are expected to
exceed $500,000, and follow-up with OGC if there is no response. The solicitation sent to OGC
for legal review should contain project specific data, such as solicitation number, description,
location of project, scope of services required, cost range and limitations, type of contract,
estimated start and completion dates, relevant FAR clauses, and any significant evaluation
factors.

Finding 3: The Rationale for Awarding the Contract on a Sole Source Basis Was Not
Included in the Award Notice

ARS publicized the contract post-award notice on FedBizOpps.gov, indicating that a contract
funded by the Recovery Act was awarded to an 8(a) Business Development Program contractor,
on a sole-source basis. However, it did not include the rationale for awarding the contract on a
sole-source basis in the post-award publication on FedBizOpps.gov.

According to FAR 5.705(b), Publicizing Post-Award, if a contract action is not both fixed-priced
and competitively awarded, the agency is required to publicize the award notice and include in
the description, the rationale for using other than a fixed-priced and/or competitive approach.
These guidelines further state that when a contract or order is awarded pursuant to a small
business contracting authority (e.g., 8(a) Business Development Program), the rationale for not
using competition must be included in the award notice.

The Contracting Officer stated that he thought the documentation of the rationale was not
required for contracts awarded under the SBA 8(a) Business Development Program, since the
                                                                                                  6
non-competitive approach was authorized by statute, for contracts under $3.5 million. However,
we determined that the Contacting Officer should have included the rationale for awarding the
contract on a sole-source basis in the post-award publication, as required by FAR 5.705(b).

By excluding the rationale for not using competition for this contract, awarded pursuant to
SBA’s 8(a) Business Development Program, the Recovery Act’s requirements for enhanced
transparency in the contracting process to the public were impaired. ARS’ rationale for
awarding the contract as sole source was justified. However, they should have stated the reason
for not using competition on FedBizOpps.gov as required by FAR 5.705(b).



Recommendation 4

ARS’ management should comply with FAR part 5.7, to ensure that Contracting Officers report
the rationale for awarding contracts in the post-award notice on FedBizOpps.gov; this includes
contracts awarded under the SBA 8(a) Business Development Program on a sole source basis.
                                    7

Agency’s Response




                    USDA’S



   AGRICULTURAL RESEARCH SERVICE



         RESPONSE TO AUDIT REPORT
April 26, 2011

SUBJECT:         Management’s Response to Recommendations in Audit 02703-03-HQ – General
                 Procurement Oversight Audit of Beltsville’s Agricultural Research Service
                 National Agricultural Library Bricks Repair Contract Awarded to Vigil
                 Contracting, Inc.

      TO:        Jon M. Holladay
                 Acting Chief Financial Officer
                 Office of the Chief Financial Officer

                 Gil H. Harden
                 Assistant Inspector General for Audit
                 Office of the Inspector General

   FROM:         Michelle D. Garner /s/
                 Acting Director, Financial Management Division


The Agricultural Research Service (ARS) provides the following responses to audit
Recommendations 1 through 4 in Audit 02703-03-HQ General Procurement Oversight Audit of
Beltsville’s Agricultural Research Service National Agricultural Library Bricks Repair Contract
Awarded to Vigil Contracting, Inc.

Finding 1: ARS’ Acquisition Planning Process Should be Formalized

Recommendation 1

ARS’s Head of Contracting Activity (HCA) should issue procedural guidance on the
implementation of the provisions of FAR Part 7, Acquisition Planning; as mandated by AGAR
48 CFR Chapter 4, part 407(1)(103).

Agency Response

ARS takes exception to Recommendation 1 & 2. AGAR 48 Chapter 4, Part 407.103 only
contains one sentence stating, “HCA’s shall develop procedures to comply with FAR 7.103.”
This is not sufficient guidance for Department of Agriculture (USDA) HCA’s to follow. FAR
7.103(d) & (f) states Agencies (meaning USDA) shall “establish criteria and thresholds at which
increasing greater detail and formality in the planning process is required… specifying those
cases in which a written plan shall be prepared.”
Jon Holladay, et. al.                                                                          2

It further goes on to say, “ensuring that the principles of this subpart are used, as appropriate, for
those acquisitions that do not require a written plan as well as those that do.” This particular
acquisition did follow all the principles of FAR 7.103 and the Contracting Officer determined a
written formal plan was not needed, which was reasonable in this case.

Once the Department issues the guidance required by the FAR 7.103, which will need to be
vetted through the Procurement Council, ARS will comply with any new additional guidance.

Recommendation 2

ARS's Facilities Division should implement the procedural guidance issued by ARS' HCA, as
noted in Recommendation 1. The resulting acquisition planning process should be formalized,
documented, and communicated to appropriate staff.

Agency Response

See Response to Recommendation 1.

Finding 2: Legal Review Procedures for Contract Actions Were Not Performed

Recommendation 3

ARS should request a legal review of solicitations for negotiated contracts that are expected to
exceed $500,000 and follow-up with Office of General Council (OGC) if there is no response.
The solicitation sent to OGC for legal review should contain project specific data, such as
solicitation number, description, location of project, scope of services required, cost range and
limitations, type of contract, estimated start and completion dates, relevant FAR clauses, and any
significant evaluation factors.

Agency Response

ARS concurs with this recommendation. Since the previous review, ARS has been requesting
OGC review all solicitations for negotiated contracts that exceed $500,000.

Finding 3: The Rationale for Awarding the Contract on a Sole Source Basis Was Not
Included in the Award Notice

Recommendation 4

ARS' management should comply with FAR part 5.7 to ensure that Contracting Officers report
the rationale for awarding contracts in the post-award notice on FedBizOpps.gov; this includes
contracts awarded under the SBA 8(a) Business Development Program on a sole source basis.
Jon M. Holladay, et. al.                                                                   3

Agency Response

ARS concurs with this recommendation. ARS is now including in the FedBizOpps post-award
notice the rationale for the award of contracts on a sole source basis to firms under the SBA 8(a)
Program.

The Agency issued guidance in June 2010 (APD Alert No. 2010-08) outlining the reporting
requirements in FPDS-NG for the American Recovery and Reinvestment Act of 2009. ARS will
update this guidance to require the posting of each sole source rationale.

Questions regarding this memorandum can be directed to Robert H. Magill, Assistant Director,
Financial Management Division at 301-504-1257 or via email at Robert.Magill@ars.usda.gov.

cc:
L. Cullumber, APD
R. Herchak, FD
